Audit Report




OIG-11-032
SAFETY AND SOUNDNESS: Failed Bank Review of Los Padres
Bank
November 16, 2010




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                          November 16, 2010


            OIG-11-032

            MEMORANDUM FOR JOHN E. BOWMAN
                           ACTING DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                 Michael J. Maloney /s/
                                  Director, Fiscal Service Audits

            SUBJECT:              Failed Bank Review of Los Padres Bank


            This memorandum presents the results of our review of the failure of Los Padres
            Bank (Los Padres), of Solvang, California. Los Padres opened in 1983 as a state-
            chartered savings association known as Santa Ynez Valley Savings and Loan
            Association. The bank changed its name to Los Padres Savings Bank in 1987
            and converted to a federally chartered savings bank in 1993. The name changed
            to Los Padres Bank in 1998. Los Padres had 11 branches located in the central
            coast area of California and 3 branches in the Phoenix/Scottsdale, Arizona, area.
            The bank’s holding company, Harrington West Financial Group, Inc., formed in
            1995 and acquired the bank in 1996. The Office of the Thrift Supervision (OTS)
            closed Los Padres and appointed the Federal Deposit Insurance Corporation
            (FDIC) as receiver on August 20, 2010. As of June 30, 2010, the bank had
            $870.4 million in total assets. FDIC estimated that the loss to the Deposit
            Insurance Fund is $8.7 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a
            review of the failure of Los Padres that was limited to (1) ascertaining the
            grounds identified by OTS for appointing the FDIC as receiver and (2)
            determining whether any unusual circumstances exist that might warrant a more
            in-depth review of the loss. In performing our review we (1) examined
            documentation related to the appointment of FDIC as receiver, (2) reviewed
            OTS reports of examination for the 5-year period before the thrift failure, and
            (3) interviewed OTS examination personnel.

            We conducted this performance audit during September 2010 in accordance
            with generally accepted government auditing standards. Those standards require
OIG-11-032
Page 3

that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Causes of Los Padres’ Failure
The primary causes of Los Padres’ failure were (1) high concentrations in
commercial real estate, commercial/industrial loans, land loans, and non-agency
mortgage backed securities; (2) ineffective board and management; and
(3) inadequate internal asset reviews. Los Padres’ losses were attributed to
significant provisions for escalating levels of problem assets and declining real
estate values, along with other than temporary impairment losses from
deterioration in the investment portfolio. Inadequate risk management and
internal asset review exacerbated the situation, as management failed to
identify problem loans and recognize losses in a timely manner.

Conclusion
Based on our review of the causes of Los Padres’ failure and the grounds
identified by OTS for appointing FDIC as receiver, we determined that there
were no unusual circumstances surrounding the thrift’s failure or the supervision
exercised by OTS. Accordingly, we have determined that a more in-depth
review of the thrift’s failure by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In
its response, OTS stated that the primary causes of Los Padres‘ failure
summarized in this memorandum are consistent with the information contained
in its reports of examination and documents in support of the grounds for
receivership. The response is provided as Attachment 1. A list of the recipients
of this memorandum is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-6512 or
Susan Roy, Audit Manager, at (202) 927-5746.

Attachments
         OIG-11-032

       Attachment 1
Management Response
                                                   OIG-11-032

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
